PRESIDENT'S COUNCIL ON INTEGRITY AND EFFICIENCY REVIEW of
APPLICATION SOFTWARE MAINTENANCE in FEDERAL AGENCIES



                   PRESIDENT'S COUNCIL ON INTEGRITY AND EFFICIENCY
                   REVIEW of APPLICATION SOFTWARE MAINTENANCE in
                   FEDERAL AGENCIES


                                     TABLE OF CONTENTS

  •   EXECUTIVE SUMMARY
        o INTRODUCTION
        o Background
        o Overview of Government wide Requirements
        o Scope
        o Definition of Software Maintenance
        o SOFTWARE MAINTENANCE WEAKNESSES
        o Software Maintenance Costs
        o Recommendations
        o Software Maintenance Contracts And Contractor Oversight
        o Recommendations
        o Change Control Management
        o Recommendation
        o APPENDICES
              A-
                      Background of the PCIE CSIP Completed Tasks
                      Task 1
                      Task 2A
                      Task 2B
                      Task 3
              B-
                      Federal Software Maintenance Criteria and Guidance
                      Public Laws
                      Office of Management and Budget
                      Federal Information Processing Standards Publications
                      National Bureau of Standards Special Publications
              C-
                      Profile of Agency Missions and Applications Reviewed
                      Department of Housing and Urban Development
                      Department of State
                      Environmental Protection Agency
                      National Aeronautics and Space Administration
                      National Science Foundation
                      Railroad Retirement Board
                      Social Security Administration
              D-
                      Individual Agency Reports Issued for Task 4
              E-
            Audit Methodology
            Policies, Procedures, and Standards
            Application Software Maintenance Lifecycle Management
            Contract Management
            Cost Management
            IRM Staff Qualifications
            Internal Control Issues
   F-
            Acronym
